          Office of Inspector General




September 9, 2005

JOHN E. POTTER
POSTMASTER GENERAL, CHIEF EXECUTIVE OFFICER

SUBJECT:       Audit Report – Air Transportation Networks – International Mail – Extra
               Territorial Offices of Exchange (Report Number NL-AR-05-010)

This report presents results from our audit of Extra Territorial Offices of Exchange
(ETOEs) (Project Number 04YG023NL001).

ETOEs are commercial businesses affiliated with foreign postal administrations. They
compete in the international shipping and delivery market with the Postal Service and
commercial shippers not affiliated with foreign posts. ETOEs focus their business on
high dollar bulk shipments from large customers in major cities. Unlike the Postal
Service, ETOEs are not required to:

   •   Provide universal service to remote or less profitable geographical regions.

   •   Use U.S. domestic airlines at rates set by the U.S. Department of Transportation.

Unlike commercial shippers not affiliated with foreign posts, ETOEs have access to the
universal delivery networks of national postal administrations at rates intended for
national posts.

ETOEs operate in the United States as permitted by international agreements intended
to foster cooperation in the international mail market. They are also supported by U.S.
public policy dating back to the Reagan Administration. Postal Service officials believe
that because ETOEs do not bear universal service costs, are not restricted to using U.S.
domestic airlines, can negotiate favorable transportation contracts with all international
air carriers, and have access to postal rates intended for official national postal
administrations, they have an unfair competitive advantage over both the Postal Service
and commercial shippers not affiliated with foreign posts. Officials also believe ETOEs
engage in improper and unauthorized practices, adversely impact legitimate
competition, and create a security risk.

In April 2005, the Postmaster General asked the Office of Inspector General (OIG) to
examine ETOE operations. The objective of our audit was to determine if practices or
procedures used by ETOEs were unfair, improper, or unauthorized. Our audit
concluded that ETOEs take competitive advantage of avenues unavailable to national
postal administrations, and also take competitive advantage of avenues unavailable to
commercial shippers not affiliated with national posts. In addition, our audit concluded
that some ETOE practices are improper or unauthorized, create vulnerability to terrorist
attack, and create certain unfair financial burdens on the Postal Service.

To help resolve these issues, the Postal Service would need to work with Congress; the
Departments of State, Justice, Commerce, and Homeland Security; the Universal Postal
Union; and other national postal administrations, to establish law, regulation, and
procedure which:

   •   Reduces the threat of terrorist attack xxxxxxxxxxxxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxx

   •   Eliminates the unfair advantages ETOEs have over the Postal Service, including
       anticompetitive restrictions which compel the Postal Service to transport
       international mail on U.S. domestic airlines at rates set by the Department of
       Transportation.

   •   Eliminates the unfair advantages ETOEs have over international shipping and
       delivery businesses not affiliated with foreign posts, including the elimination of
       ETOE use of Universal Postal Union documentation and indicia.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Mary Demory,
Deputy Assistant Inspector General for Core Operations, or me at (703) 248-2300.

/s/ Gordon C. Milbourn III

Gordon C. Milbourn III
Assistant Inspector General
 for Audit

Attachment

cc: Patrick R. Donahoe
    William P. Galligan
    Paul E. Vogel
    Anthony M. Pajunas
    Steven R. Phelps
Air Transportation Networks – International Mail – Extra                           NL-AR-05-010
 Territorial Offices of Exchange


                                          INTRODUCTION
 Background                      Extra Territorial Offices of Exchange (ETOEs) are
                                 commercial businesses affiliated with foreign postal
                                 administrations like Swiss Post, Deutsche Post (Germany),
                                 or Royal Mail (Great Britain). These foreign post affiliates
                                 compete in the international shipping and delivery market
                                 with the U.S. Postal Service and commercial shippers not
                                 affiliated with foreign posts. Competitors in this market vie
                                 for the bulk shipment of business or government
                                 correspondence, magazines, advertising, airline frequent
                                 flyer statements, various publications, packages shipped by
                                 catalog or on-line retail companies, and other products.




    Global Mail is an ETOE
        affiliated with
       Deutsche Post.

     World-wide, there are
     120 ETOEs officially
      registered with the
    Universal Postal Union.
      Twenty-two ETOEs
   operate within the United
            States.

   Photograph taken near
  Miami International Airport
        May 25, 2005.




 Public Policy                   The Universal Postal Union (UPU) is an international
                                 agency of the United Nations established to encourage
                                 international postal collaboration and improve postal
                                 services worldwide. The United States is one of 190 UPU
                                 member nations, and is represented at the UPU by the
                                 State Department. ETOEs operate in the United States as
                                 permitted by UPU agreements intended to foster
                                 cooperation in the international mail market.

                                 ETOEs are also supported by U.S. public policy dating back
                                 to the Reagan Administration. On May 1, 1986, President
                                 Reagan wrote to Postmaster General Albert Casey,
                                 explained that he wanted to encourage free enterprise, and
                                 asked that the Postmaster General work with the Secretary
                                 of State, the Attorney General, and foreign nations to permit
                                                      1
Air Transportation Networks – International Mail – Extra                           NL-AR-05-010
 Territorial Offices of Exchange


                                 and promote marketplace competition in international mail.
                                 Subsequent to President Reagan’s request, the Postal
                                 Service suspended various legal restraints, and created an
                                 environment where ETOEs could operate in the United
                                 States.

 Universal Postal Union          The UPU establishes the rates member nations pay each
 Rates and Arbitrage             other for mail originating in one country and terminating in
                                 another. When the same product is priced differently in two
                                 or more markets, it is possible to exploit the imbalance. The
                                 practice of exploiting such imbalance is known as arbitrage.

                                 Depending on the characteristics of mail—letters, packages,
                                 books, or other items—UPU rates received from a foreign
                                 post can be more or less than revenues received on similar
                                 mail accepted domestically. In addition, when setting rates,
                                 the UPU discriminates between developing countries and
                                 industrialized countries. In fact, there is wide discrepancy
                                 between domestic rates, developing country rates, and
                                 industrialized country rates. As a result, there are
                                 innumerable permutations of arbitrage opportunities.
                                 ETOEs exploit these opportunities in ways not available to
                                 official national postal administrations, or to commercial
                                 shippers not affiliated with official posts.

 Universal Service               The postal administrations of the 190 UPU member nations
                                 are generally obligated to provide mail service universally
                                 within their borders—and to bear the cost of that universal
                                 service obligation. ETOEs, as commercial businesses, do
                                 not have a universal service obligation. Instead, ETOEs
                                 focus on high profit business from bulk shippers in major
                                 cities. However, as the affiliates of foreign posts, ETOEs
                                 have access to the universal delivery networks of official
                                 UPU postal administrations at rates established for those
                                 postal administrations.

                                 The Postal Service believes that because ETOEs do not
                                 bear universal service costs, but have access to UPU rates,
                                 they have an unfair advantage over both the Postal Service
                                 and nonaffiliated commercial shippers. Consequently, the
                                 Postal Service believes ETOEs should be restricted. To
                                 that end, in September 2001, the Postal Service changed its
                                 policy to refuse ETOE shipments inbound to the United
                                 States, unless the ETOE paid U.S. domestic mail rates.



                                                      2
Air Transportation Networks – International Mail – Extra                                           NL-AR-05-010
 Territorial Offices of Exchange


    The Position of ETOE          Some ETOE proponents1 argue that ETOEs should not be
    Proponents                    restricted because restrictions stifle competition in the
                                  international shipping and delivery market—and in addition,
                                  may have significant economic and legal implications. For
                                  example, ETOE proponents explain:

                                       •   ETOEs are a positive catalyst for change, and
                                           restricting ETOEs ignores the trend toward
                                           international business globalization and the realities
                                           of the global business mailer.

                                       •   ETOEs are not the problem, but are only a symptom
                                           of a discriminatory UPU rate system, and that rather
                                           than focusing on restrictions, the UPU should focus
                                           on reforming discriminatory UPU rates.

                                       •   ETOE restrictions may be subject to international
                                           legal challenges under the World Trade Organization
                                           negotiated General Agreement on Trade in Services.

    The Postal Service            Postal Service officials counter that ETOEs are not a
    Position                      positive catalyst for change—and do not foster competition.
                                  They explain ETOEs engage in unfair, improper and
                                  unauthorized practices; adversely impact legitimate
                                  competition; and create a security risk.

                                  In the fall of 2004, the Postal Inspection Service found U.S.
                                  based ETOEs were improperly using Postal Service
                                  equipment to dispatch international shipments. As a result,
                                  in February 2005, the Postal Service notified foreign posts,
                                  ETOEs, airlines, and others, that:

                                       •   Unauthorized use of Postal Service equipment
                                           violated federal law.

                                       •   Unauthorized use of Postal Service equipment had
                                           significant financial and security implications.

                                       •   The Postal Service would seize any of its equipment
                                           improperly used to transport ETOE dispatches at
                                           U.S. airports.




1
 Leong, Joy M., Daniel Bahar, and Dimosthenis Papakrivopoulos. 2005. "ETOEs: Arbitrageurs or Vehicles of Change
in Postal Liberalization?" In Regulatory and Economic Challenges in the Postal and Delivery Sector, edited by M.A.
Crew and P.R. Kleindorfer, Boston, MA: Kluwer Academic Publishers.
                                                         3
Air Transportation Networks – International Mail – Extra                             NL-AR-05-010
 Territorial Offices of Exchange



                                 In April 2005, the Postmaster General asked the Office of
                                 Inspector General (OIG) to examine ETOE operations.

 Objectives, Scope,              The objective of our audit was to determine if practices or
 and Methodology                 procedures used by ETOEs were unfair, improper, or
                                 unauthorized.

                                 During our work we interviewed Postal Service officials at
                                 headquarters and in various Postal Service areas and
                                 districts. We analyzed various articles and literature about
                                 ETOEs and the global postal environment, interviewed
                                 authors, and considered divergent views. We also
                                 consulted with economists, lawyers, computer analysts,
                                 other subject matter experts, and relied upon their expertise.




      Cathay Pacific is an
    international flag airline
 based in Hong Kong. ETOEs
  can use Cathay Pacific for
  international shipments to
        Asia and Europe.


     Photograph taken at
  O’Hare International Airport
       Chicago, Illinois,
        May 16, 2005.




                                 We visited international airports in New York, Newark,
                                 Chicago, Miami, Los Angeles, and San Francisco. We
                                 interviewed personnel at international mail service centers,
                                 international air mail record units, business mail entry units,
                                 and mail processing plants. We interviewed U.S. Customs
                                 agents, postal inspectors, and Postal Service transportation
                                 managers. We observed and photographed international
                                 mail receiving operations, airport ramp operations, air cargo
                                 operations, and business mail entry unit operations. We
                                 inspected inbound international mail and accompanying
                                 documentation, and we analyzed data on inbound ETOE
                                 shipment volume.

                                 In addition, we participated on a joint task force with the
                                 Postal Inspection Service, the U.S. Department of
                                                      4
Air Transportation Networks – International Mail – Extra                          NL-AR-05-010
 Territorial Offices of Exchange


                                 Commerce, the U.S. Customs and Border Protection, and
                                 the U.S. Postal Service. The objective of the task force was
                                 to interdict improper use of Postal Service equipment.
                                 During task force operations we visited ETOEs, interviewed
                                 ETOE managers and employees, observed and
                                 photographed operations, and identified Postal Service
                                 equipment in ETOE possession.

                                 We conducted work associated with this report from
                                 April through September 2005 in accordance with generally
                                 accepted government auditing standards, and we included
                                 such tests of internal controls as we considered necessary
                                 under the circumstances. We discussed our observations
                                 and conclusions with management officials and included
                                 their comments where appropriate.

 Audit Limitations               Data Limitations – During our audit, we examined Postal
                                 Service data, documentation, and other Postal Service
                                 records on inbound ETOE shipment volume. We did not
                                 audit or comprehensively validate data; however, we noted
                                 several control weaknesses that constrained our work. For
                                 example, data and other records were incomplete or
                                 unavailable, and as a result, we could not readily determine
                                 whether charges to the Postal Service by foreign postal
                                 administrations were appropriate, or to what extent ETOE
                                 activities financially impacted Postal Service operations.
                                 Even though data limitations constrained our work, we were
                                 able to partially compensate by applying alternate audit
                                 procedures, including observation, physical inspection, and
                                 discussion with responsible officials.

                                 Legal and Diplomatic Constraints – In addition to the
                                 limitations imposed by inadequate records, certain legal,
                                 diplomatic, and other considerations restricted our work.
                                 For example, we could not access ETOE operations, except
                                 in the narrow context of our participation on the Postal
                                 Inspection Service task force, and as a result, we could not
                                 fully inspect ETOE records, outbound shipments, or
                                 accompanying documentation.

 Prior Report                    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
 Coverage                        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                                      5
Air Transportation Networks – International Mail – Extra                      NL-AR-05-010
 Territorial Offices of Exchange


                                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

                                     •   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                         xxxxxxxxxxxxxxxxxxxxxxxxx

                                     •   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                         xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                         xxxxxxxxxxxxxxxxxxxxxxxxxxx

                                     •   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                         xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

       During the week
       May 22-28, 2005,
  a Postal Inspection Service
       Joint Task Force
     recovered $140,000 in
   Postal Service equipment
    from U.S. based ETOEs
          nationwide.

       The ETOEs were
     improperly using the
    equipment to transport
       ETOE dispatches
          overseas.

     Photograph taken in
       Miami, Florida,
        May 25, 2005.




                                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx




                                                      6
Air Transportation Networks – International Mail – Extra                            NL-AR-05-010
 Territorial Offices of Exchange


                                          AUDIT RESULTS

 Competition and                 ETOEs are commercial enterprises that compete for high
 Security                        dollar bulk shipments from large customers in major cities.
                                 As commercial enterprises, they are not required to service
                                 remote or less profitable geographical regions. However, as
                                 foreign post affiliates, they access the universal delivery
                                 networks of universal service providers at rates intended for
                                 national posts. Our audit concluded that ETOEs:

                                     •   Take competitive advantage of avenues unavailable
                                         to national posts.

                                     •   Take competitive advantage of avenues unavailable
                                         to shippers not affiliated with national posts.

                                 Our audit also concluded that some ETOE practices are
                                 improper—or unauthorized—and that those practices
                                 create:

                                     •   A vulnerability xxxxxxxxxxxxxxxxxxxxxxxxxxx
                                         xxxxxxxxxxxxxx the U.S. mailstream.

                                     •   Certain unfair financial burdens on the Postal
                                         Service.

 ETOE Use of UPU                 As part of routine business operations, ETOEs accept bulk
 Documentation and               advertising, letters, correspondence, publications,
 U.S. Mail Transport             packages, and other products. ETOEs then consolidate
 Equipment                       those products, evaluate competitive pricing for transport
                                 and delivery, and consign products to the most cost
                                 effective transport and delivery channel.

                                 In order to take advantage of UPU rates intended for
                                 national postal administrations, ETOEs use UPU
                                 documentation. Use of UPU documentation for commercial
                                 purposes confers a competitive advantage on ETOEs not
                                 available to commercial shippers unaffiliated with national
                                 posts.

                                 In order to take advantage of U.S. bulk mail rates, ETOEs
                                 sometimes consign bulk shipments to the Postal Service.
                                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                 xxxxxxxxxxxxxxxxxxxxxxx However, use of Postal Service


                                                      7
Air Transportation Networks – International Mail – Extra                            NL-AR-05-010
 Territorial Offices of Exchange


                                 equipment by ETOEs for purposes other than consigning
                                 mail to the Postal Service is unauthorized.

                                 Our audit identified unauthorized use of Postal Service
                                 equipment by ETOEs. Specifically, the Postal Inspection
                                 Service joint task force, on which we participated, identified
                                 unauthorized ETOE equipment use at international airports
                                 in New York, Newark, Chicago, Miami, Los Angeles, and
                                 San Francisco. In response to unauthorized ETOE
                                 equipment use, the task force removed Postal Service
                                 equipment which the Postal Inspection Service valued at
                                 more than $140,000.

                                 U.S. Customs and Border Protection agents, Postal
                                 Inspectors, and other personnel, stated that ETOE use of
                                 UPU documentation and U.S. mail transport equipment
                                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                 xxxxxxxxxxxxxxxxxxxxxxx places certain unfair financial
                                 burdens on the Postal Service. They explained:

                                     •   Freight shipments with UPU documentation, or
                                         contained in equipment bearing universally
                                         identifiable Postal Service logos or markings, are
                                         easily mistaken for mail, xxxxxxxxxxxxxxxxxxxxx
                                         xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

                                     •   Freight from the United States arriving at foreign
                                         destinations in Postal Service equipment can be
                                         misidentified as U.S. mail, and result in improper
                                         charges to the Postal Service.

                                     •   Vulnerability resulting from the misidentification of
                                         ETOE freight as U.S. mail could xxxxxxxxxxxxxxxx
                                         xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                         xxxxxxxxxxxxxx increase cost to the Postal Service.

                                     •   The Postal Service must pay foreign posts for mail
                                         transport equipment returned to the U.S. through
                                         UPU channels.

                                     •   Unauthroized use of equipment bearing the Postal
                                         Service logo infringes on the Postal Service brand.

 Department of                   As part of normal business operations, U.S.-based ETOEs
 Transportation (DOT)            routinely analyze competitive air transportation pricing for
 Rate Setting                    international shipments to foreign countries. Analyzing
                                 competitive pricing on international shipments is a standard
                                                      8
Air Transportation Networks – International Mail – Extra                               NL-AR-05-010
 Territorial Offices of Exchange


                                  business practice unavailable to the Postal Service—a
                                  practice that confers a competitive advantage on ETOEs.
                                  ETOEs are free to negotiate rates with all air carriers—both
                                  foreign and domestic—and the Postal Service is not. In
                                  accordance with U.S. law, the Postal Service must generally
                                  use U.S. domestic airlines, and must generally pay rates set
                                  by the DOT.

   Virgin Atlantic is a British
          flag airline.

    While the Postal Service
    must generally use U.S.
   domestic airlines and pay
   rates set by DOT, ETOEs
     could negotiate with
       airlines like Virgin
    Atlantic for lower rates.

     Photograph taken at
       John F. Kennedy
     International Airport
     New York, New York,
         May 14, 2005.



                                  DOT rates provide airlines with revenues greater than the
                                  airlines would achieve in a competitive market. Because
                                  data limitations restricted our work, we could not quantify
                                  the amount of this overpayment, or validate other estimates.
                                  However, our examination of Postal Service, Government
                                  Accountability Office, DOT, and congressional documents
                                  suggests overpayment exists. For example:

                                     •   Proposed 2004 Postal Reform legislation, citing
                                         Postal Service data, estimated that the Postal
                                         Service could save $40-50 million annually if the
                                         Postal Service was allowed to freely negotiate
                                         international air transportation rates with all qualified
                                         air carriers.

                                     •   The Postal Service has certain very limited
                                         exceptions to DOT rates, and when the Postal
                                         Service contracts under those very limited
                                         exceptions, negotiated rates are usually far less than
                                         equivalent DOT rates.

                                     •   U.S flag carriers oppose deregulation, cite subsidies
                                         received by foreign carriers from foreign

                                                      9
Air Transportation Networks – International Mail – Extra                              NL-AR-05-010
 Territorial Offices of Exchange


                                         governments, and project U.S. carriers would lose
                                         money in a competitive market environment.

                                 Because the Postal Service pays U.S. flag airlines more
                                 than competitive market rates on international shipments,
                                 ETOEs have a competitive advantage over the Postal
                                 Service, and the Postal Service loses potential business.

                                 This situation is illustrated by routine international shipping
                                 decisions made by the same U.S. flag airlines that U.S.
                                 public policy and law support. During our on-site
                                 inspections at international airports and Postal Service
                                 facilities, we identified U.S. domestic airline “frequent flyer”
                                 statements and advertisements shipped through ETOEs for
                                 delivery in foreign countries. The ETOEs were able to
                                 successfully compete for this U.S. flag airline business, at
                                 least in part, because they were not restricted by the legal
                                 requirement to use U.S. domestic airlines—and were
                                 allowed to negotiate the most favorable air transportation
                                 rate with all available international air carriers—both foreign
                                 and domestic.

 Return to Sender                Sometimes ETOE shipments cannot be delivered as
                                 addressed. As with mail, delivery failure happens for a
                                 variety of reasons. For example, correspondence might be
                                 incorrectly addressed, or the addressee may have moved.
                                 When ETOE shipments cannot be delivered, shipping
                                 instructions may require “return to sender.” When return is
                                 required, the return should be made through ETOE
                                 channels. However, ETOEs frequently mark shipped items
                                 with return instructions too small to be readily identified—or
                                 in many cases, ETOEs omit return instructions entirely.

                                 As a result, foreign postal administrations easily misidentify
                                 ETOE “return to sender” items as U.S. mail—particularly
                                 when the items bear a U.S. return address. For example,
                                 during our audit we identified ETOE shipped frequent flyer
                                 statements and airline advertising bearing a Dallas post
                                 office box return address—and not clearly marked with
                                 ETOE return instructions.

                                 Because ETOEs do not properly mark return instructions on
                                 items they ship, foreign posts misidentify ETOE return items
                                 as U.S. mail; commingle ETOE return items with legitimate
                                 mail; and send ETOE return items, as mail, to the Postal
                                 Service. In addition—and making identification of ETOE
                                 return items even more difficult—the ETOE return items are
                                                      10
Air Transportation Networks – International Mail – Extra                            NL-AR-05-010
 Territorial Offices of Exchange


                                  sometimes shipped to the Postal Service in U.S. mail
                                  transport equipment.

                                  Because ETOE return items are commingled with legitimate
                                  mail, sometimes arrive in Postal Service equipment, and are
                                  not otherwise easy to identify, Postal Service personnel
                                  inadvertently and understandably induct them into the
                                  U.S. mailstream for return to shipper. When this happens,
                                  the Postal Service bears the cost of using its induction
                                  facilities, processing plants, transportation networks,
                                  personnel, post offices, delivery networks, and other
                                  infrastructure, to return items for which the Postal Service
                                  has received no postage. Any Postal Service cost to return
                                  ETOE shipped freight is unfair and inappropriate.

 This advertisement was sent
 to Manchester, England, by
 Global Mail—the Deutsche
 Post ETOE. The preprinted
 U.S. “Postage Paid” indicia
 is marked out and replaced
 with Royal Mail indicia
 indicating a London return
 address. However, the
 American Airlines return
 address is more visible, and
 when Royal Mail could not
 deliver the item, they sent it
 to the U.S. Postal Service for
 return to American Airlines.

 We recovered this item at
 Chicago’s Cardiss Collins
 Processing and Distribution
 Center on May 14, 2005.




                                                                     During our audit we
                                                                     interviewed Postal
                                                                     Service personnel who
                                                                     told us that because
                                                                     ETOE return items were
                                                                     not easy to identify, they
                                                                     were not segregated,
                                                                     and as a result, there
                                                                     was no data to quantify
                                                                     volume. The personnel




                                                      11
Air Transportation Networks – International Mail – Extra                              NL-AR-05-010
 Territorial Offices of Exchange

 Had we not recovered it,        also told us that any process to segregate inadvertently
 Postal Service infrastructure
 would have been used to         shipped items would be cost prohibitive. Our audit
 return the item to Dallas       procedures to segregate inadvertently returned ETOE items
 even though the Postal          validated the difficulty of such a process. However,
 Service received no postage.
                                 because there was no volume data, we could not estimate

                                 the cost to the Postal Service of using Postal Service
                                 infrastructure to return ETOE shipped items.

 Summary                         Because ETOEs have access to UPU documentation and
                                 UPU rates; do not have a universal service obligation; and
                                 use Postal Service equipment for unauthorized purposes,
                                 they have a competitive advantage over official national
                                 postal administrations and other commercial shippers not
                                 affiliated with national posts. Because ETOEs can
                                 negotiate favorable transportation pricing from all
                                 international air carriers—both foreign and domestic—and
                                 are not restricted to using U.S. domestic airlines at rates set
                                 by the DOT, ETOEs have an unfair competitive advantage
                                 over the Postal Service. Finally, ETOE use of UPU
                                 documentation, and unauthorized use of U.S. mail transport
                                 equipment, disguises ETOE freight as legitimate mail,
                                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx places unfair
                                 financial burdens on the Postal Service.

                                 To help resolve these issues, the Postal Service would need
                                 to work with Congress; the Departments of State, Justice,
                                 Commerce, and Homeland Security; the Universal Postal
                                 Union; and other national postal administrations, to
                                 establish law, regulation, and procedure which:

                                     1. xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

                                     2. Eliminates the unfair advantages ETOEs have over
                                        the Postal Service, including anticompetitive
                                        restrictions which compel the Postal Service to
                                        transport international mail on U.S. domestic airlines
                                        at rates set by the Department of Transportation.

                                     3. Eliminates the unfair advantages ETOEs have over
                                        international transport and delivery businesses not
                                        affiliated with foreign posts, including the elimination
                                        of ETOE use of Universal Postal Union
                                        documentation and indicia.


                                                      12
Air Transportation Networks – International Mail – Extra   NL-AR-05-010
 Territorial Offices of Exchange




                                                      13
